C@OCKLE

2311 Douglas Street Le ga ] Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

CALLAN CAMPBELL, KEVIN C. CHADWICK
(INDIVIDUALLY AND THROUGH HIS COURT-APPOINTED
ADMINISTRATORS, JAMES H. CHADWICK), JUDITH
STRODE CHADWICK, THE TYLER JUNSO ESTATE
(THROUGH KEVIN JUNSO, ITS PERSONAL REPRESENTA
-TIVE), NIKI JUNSO, AND KEVIN JUNSO, ALL ON THEIR
OWN BEHALF AND ON BEHALF OF A CLASS OF ALL OTHERS
SIMILARLY SITUATED,

Petitioners,

v.
UNITED STATES,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of April, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Steven R. Jakubowski Robert H. Thomas
ROBBINS, SALOMON Counsel of Record
& PATT, LTD. DAMON KEY LEONG
180 North LaSalle Street KUPCHAK HASTERT
Suite 3300 1003 Bishop Street
Chicago, Illinois 60601 16th Floor
(312) 456-0191 Honolulu, Hawaii 96813
sjakubowski@rsplaw.com (808) 531-8031

tht@hawaiilawyer.com

Counsel for Petitioners

Subscribed and sworn to before me this 20th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL HOTARY-State of lisbraska
CA

  
     

39729

Affiant

 

 

Notary Public
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
